No. 20-637

 

In THE
Supreme Court of the Anited States

DARRELL HEMPHILL,

Petitioner,
Vv.
STATE OF NEW YORK,
Respondent.
CERTIFICATE OF SERVICE

I, Brianne J. Gorod, do hereby declare that on June 29, 2021, as required by
Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the Brief
of Constitutional Accountability Center as Amicus Curiae in Support of Petitioner on

counsel for each party to the above proceedings as follows:

Jeffrey L. Fisher Noah Jeffrey Chamoy

Stanford Law School Supreme Court Office of the Bronx District Attorney
Clinic 198 East 161 St.

559 Nathan Abbott Way Bronx, NY 10451

Stanford, CA 94305 chamoyn@bronxda.nyc.gov
jlfisher@law.stanford.edu (718) 838-7142

(650) 724-7081

Counsel of Record for Petitioner Counsel of Record for Respondent
Darrell Hemphill State of New York

I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 29, 2021.

 

Counsel for Amicus Curiae
